0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Western
Oilfields Supply Company, Doing Business as Rain for
Rent v. Secretary of Labor and Federal Mine Safety
and Health Review Commission was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 4th day of June, 2020:
Ali Abed Beydoun
Andrew Ryan Tardiff
U.S. Department of Labor
20112th Street South, Suite 401
Arlington, VA 22202-5450
(202) 693-9366
beydoun.ali@dol.gov
tardiff.andrew.r@dol.gov
Daniel Joseph Colbert
U.S. Department of Labor
Office of the Solicitor
N2700
200 Constitution Avenue, NW
Washington, DC 20210
(202) 693-5308
colbert.daniel.j@dol.gov
John Thomas Sullivan
Mine Safety and Health Review Commission
1331 Pennsylvania Avenue, NW
Suite 520NW
Washington, DC 20004
(202) 434-9929
j sullivan@fmshrc.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondents
Byron J. Walker
Counsel of Record
Tim Boe
Rose Law Firm,
A Professional Association
120 East Fourth Street
Little Rock, Arkansas 72201
(501) 375-9131
tboe@roselawfirm.com
bwalker@roselawfirm.com
Joseph Christopher Hall
Rose Law Firm,
A Professional Association
P.O. Box 4800
Fayetteville, Arkansas 72702
(479) 695-1330
jhall@roselawfirm.com

Counsel for Petitioner

All parties required to be served have been
served.
I further declare under penalty of perjury that
the foregoing is true and correct. This Certificate is
executed on June 4, 2020.

DonnaJ. Wo ·
Becker Gallagher Le
ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notarycfttc (} ·
[seal]

lw-t!r

d.ne-- ~ d6d0

JOHN D. GALLAGHER
Notary Public, State of Ohio
MyCommission Expires
February 14, 2023

